No. 20-1161

 

IN THE
Supreme Court of the United States

EDWARD J. KOSINSKI,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,997 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 20, 2021.

Colin Casey\Hogan
Wilson-Epes Printing Co., Inc.
